 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




SURVEYING   MEDICARE   HMO BENEFICIARIES
Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




SURVEYING   MEDICARE   HMO BENEFICIARIES
    �
    .*’   ‘%




4
:               DEPARTMENT      OF HEALTH&          HUMAN SERVICES                              Off Ice of Inspector General
s

‘%%.                                                                                            Washington, D.C. 20201




                                                                   November 8, 1995

               This report describes the   rationales   for and protocols of surveying Medcare beneficiaries in
               risk WOS.

               In 1995, the (l&e of Inspector General completed a series of four reports on Medicare risk
               HMOS. We started in 1993 by surveying beneficiaries enrolled in or recently disenrolled from
               Medicare risk HMOS. We hoped to better understand enrollment procedures and service
               access issues horn their perspective. Using tne beneficiary data set, we also examined the
               enrollment procedures and access issues for the HMOS as a group, for indkidual HMOS, and
               for developing HMO performance indicators.

               We selected a stratified, random sample of 4,132 enrollees and disenrollees from 45 Medicare
               risk HMOS in the Health Care Financing Administration’s (HCFA) database. Of these, 2,882
               beneficiaries returned usable surveys. Since our primaq f~us was Mdlcare beneficiaries’
               perceptions and experiences, we collected information directly from them. We did not attempt
               to validate their responses through record review or HMO contact, nor did we attempt to
               assess the quality or propriety of medical care rendered by the HMOS to these beneficiaries.

               Our intent was not to prescribe specific corrective actions, but to identi$, based on
               tiorrnation from beneficiaries, areas apparently needing improvement and to suggest
               techniques HCFA can use to firther monitor these areas.

               AS a follow-up to our first four reports, we prepared this one on survey protocols and
               summary findings for HCFA’Sinternal use. HCFA stti, who may conduct or arrange for
               similar or related surveys in the fhture, had requested details of our survey methods and
               lessons learned about conducting such surveys. We hope this report will be usefhl to them and
               others interested in improving HMO services.

               This report was prepared in the Dallas Regional Office of the Oflice of Evaluation and
               Inspections under the direction of Chester B. Slaughter, Regional Inspector General. Project
               stafTincluded Michelle Adarns and Judith Tyler, both of the Dallas OffIce.

               For additional copies, call (800) 848-8960




                                                            *E!!
                                                                   Evaluation and Inspections
                        TABLE                    OF CONTENTS



SURVEY      GUIDELINES               . . . . . . . . . . .   . . . . . . . . . . . . . . . .. . . . . . . . ...1


  Overall Approach       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


  Sampling Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


  Survey Conduct       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...2


  Survey Construction        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...2


  Survey Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


 Practical Points ofSurveyProtocol                . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


 Data Analysis       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..6


CONCLUSIONS           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8


ENDNOTES         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .9


APPENDICES

A: Summary ofHMO Report Findings                      . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

B: Sample Demographics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l

C: Survey Letters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-l

D: Survey Instrument        ..,...          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..D-l
                     SURVEY               GUIDELINES

OVERALL APPROACH:            Why Do A Beneficiary Survey?

Our fwst reason for choosing a beneficiary survey as a method for studying Medicare risk
HMOS was the particular issues on which we had focused. Generally, a serious concern
about risk HMOS is that capitated payments, which will not vary with the actual services
provided to enrollees, may encourage HMOS to provide fewer services than necessary or
to restrict access to services. In addition, HMOS may possibly encourage disenrollment of
beneficiaries whose expected medical costs will exceed the cavitation rate. Our focus was
to gauge the extent to which beneficiaries perceived Medicare risk HMOS provided needed
health care, and if beneficiary disenrollment rates, either done or combined with certain
other factors, are a reliable HMO performance indicator. Directly asking beneficiaries
detailed questions about their access to health services and reasons for leaving an HMO
was, in our opinion, the best way to answer our study questions.

Our second reason for a beneficiary survey was our positive prior experience with these
surveys. Beneficiaries have been an important and direct source of information about
program effectiveness. We have conducted several armual surveys of Medicare
beneficiaries to provide program managers feedback on topics such as claims processing
experiences, knowledge of program rules and benefits, and use of program materials. We
believe the results of our HMO beneficiary survey support our cotildence in this method.
(See Appendix A for summaries of the four reports in the HMO series.)


SAMPLING PLAN:         Considerations For Choosing The Beneficiaries

To select our beneficiary sample, we needed a sampling technique that best suited our
study focus and data analysis goals. We decided to use a stratil%d, two-stage sample in
which the fust stage would be selecting Medicare risk HMOS, and the second stage,
beneficiaries associated with these HMOS.* The strata at the frost stage were based on
the HMO disenrollment rates for a defined period. At the second stage we categorized
beneficiaries as currently enrolled or as recently disem-oiled. We believed that this
sampling technique would provide the greatest flexibility in data analysis. For example, if
we had selected just current enrollees or just recent disenrollees, we could not know if, or
how, their HMO experiences with service access were different. Without this contrasting
data, we could not make any inferences about what is most likely to cause a beneficiary to
leave or remain in an HMO. Another example is that selecting HMOS frost permitted an
analytical linkage between service access problems reported by beneficiaries and speciilc
HMOS, HMO characteristics, or problem pervasiveness among HMOS.




                                              1

SURVEY     CONDUCT:      Resources, Processes And Time Frames

We conducted the beneficiary survey with a core project team of three OIG program
analysts over a 19-month period. The core team, who was responsible for the whole
project, had substantial experience with project design and management, the Medicare
program, interviewing techniques, survey construction, various methods of data analysis,
and report layout and writing. In addition, other OIG personnel provided, at key
junctures in the study process, support to the core project team in statistics, Spanish
translation, sample selection, data management/tracking, data input, and administrative
tasks. A computer system that could run DBase IV and SPSS-PC was used for data input
and analysis. The overall process for completing the study included:

 P Study Design (1 month): Selecting and developing a study focus, sampling frame and
task schedule.

E Survey Construction (3 months); Researching, writing, pre-testing and revising the
beneficiary survey instrument.

�   D@a Collection @ months): Actual selection of sample, set-up of sample tracking log
in DBase IV, 2 initial and second mailings of survey form, telephone interviews and
follow-up with beneficiaries when necessary.

� Dala Input (2 months):     Concurrent with data collection, postcoding surveys where
applicable, keying responses, and cleaning data for inconsistent, impossible or erroneous
entries.

 E Dafa AnaZysis (5 months): Finalizing analysis plan and actual data manipulation
including non-response bias cheek, frequencies, cross-tabulations, measures of central
tendency and variability, tests of statistical signiilcance, and regression analyses.

E Repoti Writing (5 months): Determining content, organization, and number of reports
supported by data analysis results; actual production of the draft reports issued for
comment and revision.


SURVEY     CONSTRUCTION:         Accommodating Study Focus And Survey Population

�      Study Focus: The primary focus of this study was the Medicare beneficiary’s
access to medical care through the HMO. We did not intend to study quality of care as
such. Further, we specflcally excluded a line of inquiry about beneficiary satisfaction
with the HMOS, as the concept of satisfaction is less objective than, and sometimes
independent of, the issues of membership in a Medicare risk HMO. Collateral
information that we did solicit from the beneficiaries, however, was their demographic
data, health status, and appraisal of HMO philosophy or priorities.




                                             2

In order to construct a survey instrument that adequately covered access to services, we
adapted a defhition from the literature. 34‘ Basically, it uses five dimensions
(availability, accessibility, accommodation, affordability, and acceptability) that represent
the degree of “fit” between the patient and the health care system, e.g. existing services
and the patient’s medical needs, or price of services and the patient’s ability to pay. To
tailor the survey for Medicare risk HMOS, we expanded the idea of service availability to
include the role of gatekeepers, primary physicians or others associated with the HMO, in
preventing or facilitating beneficiaries’ receipt of covered services. Operationally, we
divided access into four areas: appointments, including waiting time and administrative
processes for making them; restrictions on medical services; incidence and reasons for
out-of-plan care; and behavior of primary HMO doctors and other HMO personnel
towards beneficiaries.

To accommodate our study focus, the survey questions are written predominantly in terms
of the processes of HMO membership, or the beneficiaries’ perceptions of those
processes. For example, instead of asking if the beneficiaries were satisfied with their
primary physicians, we asked if they were referred for services when they believed they
needed to be, or if their physicians took their health complaints seriously.

 b      Survey Format: We wrote two separate surveys (enrollee and disenrollee) in a
parallel format. (See survey forms in Appendix D.) Each is divided into seven clearly
labelled sections: 1) directions for completing the survey; 2) beneficiary demographics
and self-assessment of their propensity to use medical services; 3) enrollment experience
and understanding of HMOS; 4) self-reported health assessment; 5) and 6) coverage of the
four operational areas defined for access to medical services, plus two questions on appeal
rights; and 7) future plans for medical care (enrollees), or reasons for leaving an HMO
(disenrollees). The sequence of the sections is basically chronological, starting with the
time the beneficiaries enrolled and ending with their current status and evaluation of
medical care received.

We also formatted the survey document in a user-friendly style that we thought was
responsive to the needs of the study population. First, for easier reading, we used a
larger (13-point) font and slightly expanded spacing between lines.s Second, we used
simple, one-idea questions with follow-up questions to capture details. For example,
instead of asking “How often, if ever, did your primary HMO doctor fail to refer you to a
specialist when you thought you needed to see one?” we asked two questions -- “Did your
primary HMO doctor ever fail to refer you to a specialist... ” AND “How ofien did your
primary HMO physician fail to refer you to a specialist?” While these methods required
more page space, we felt they improved the readability and comprehension of the survey,
and thus, the quality of our data.

 F      Refinements: Despite the good response rate on the survey, we analyzed what in
particular had worked well and what hadn’t. Although the survey was 62 questions long,
the majority of respondents successt%lly worked their way through to the end. If we had
it to do over again, we would, nevertheless, eliminate unproductive questions and add
others for areas we hadn’t covered. Questions, that we might add, cover beneficiaries’


                                              3
reasons for joining an HMO, comfort with premium costs and co-payments, or coverage
problems with emergent or urgent care. Examples of candidates for deletion are:

question 6	           how benefici arv atmlied for membership) -- no discernible pattern or
                      linkage with other questions,
question 17	          occurrence of surgery -- overkill on establishing health status, and
                      beneficiaries often did not link it to the preceding question on
                      hospital admission,
questions 30-32       lost/misPlaced medical records -- apparently a rare problem
questions 41-42	      medical socialists {which ones) not covered bv the HMO --
                      beneficiaries often did not link the two questions, and tended to
                      respond in terms of specialists they needed to see or had seen.

Because of our decision to write simple, one-idea questions, we frequently used skip
directions (e.g. Go to question 18) when beneficiaries answered the screening question in
the negative. Many beneficiaries initially failed to follow the skip directions. However,
the process seemed to be self-instructing, and eventually, most caught on to our meaning.
Even if they did not, their answers on the screening questions were still usable. Several
of our questions listed six or more response options, each one to be marked “yes” or
“no”. The length of the response list per se was not as problematic as having the
respondents clearly mark each option. Our approach tends to encourage answering each
option, but directing the respondent instead to “Mark all that apply” is an alternative
worth experimentation.


SURVEY    RESPONSE:       Achieving High Response Rates And Managing Inquiries

The sampled beneficiaries were highly responsive to the survey. Of the 4,132

beneficiaries to whom we mailed surveys, 2,882 returned a usable document. The

unweighed return rate was 70 percent overall, 77 percent for enrollees (N= 1705), and 61

percent for disenrollees (N= 1177). Respondents were predominantly female, white, and

age 65 or older (average age of 74 years). Interestingly, they were better educated than

we expected. G Forty-three percent reported education beyond the high school level, such

as vocationalkchnical training, college and postgraduate work. Another 29 percent were

high school graduates. (See Appendix B for more demographic data.)


This good rate of return was achieved in about two months with only two follow-up

mailings required. After initially sending the survey, we sent a reminder letter three

weeks later to all those beneficiaries who had not returned the survey. In this letter, we

answered the questions most commonly posed by beneficiaries who had called our “800”

number after the fwst mailing. After two more weeks, we sent another reminder letter

(different wording and appearance) and a replacement survey document (different cover

color). (See Appendix C for samples of cover letters sent to beneficiaries.)


Our experience and informal discussions with other OEI staff revealed that, as a group,

Medicare beneficiaries are relatively easy to survey because of their keen interest in the



                                              4
program. After both mailings of the survey, many contacted us, in a largely informed,
cooperative manner, by calling our “800” number and in writing. The highest volume of
contact occurred from two to ten days after we completed a mailing. Disenrollees, who
called in, often needed more encouragement to respond. We sometimes had to overcome
the estrangement they felt about their HMO experience or their mistaken belief that we
didn’t really want responses from disenrollees. We found that frequent, but short, team
meetings to rehearse answers to the most commonly asked questions and a list of HCFA
Beneficiary Services contacts in the Regional Offices were invaluable tools for the data
collection period. Study team members were also ready to complete the survey on the
telephone with beneficiaries who required assistance. We believe that our preparation for
answering beneficiary questions and being easily accessible to them by an “800” telephone
number improved our response rate.

Examples of questions the beneficiaries typically asked:

Source	 of Survey
       Who are you?
       Are you trying to sell me something (e.g. health insurance)?
       Do you work for the HMO?
       Do you really work for the government?

Reuuest for Assistance
       Can you tell me what HMO I should join?

       How can I get my HMO to . ..?

       What does this question mean?

       Will you help me f~ out the survey?


Reauest for Additional Information/Misconceptions
       What’s the purpose of this survey?
       Why are you wasting taxpayers’ money on this?
       I’m not in an HMO; I have a health plan.
       Am I in trouble if I can’t complete it by the due date?
       Do I have to fti this out to get my Social Security check?
       I don’t belong to the HMO anymore. Should I still answer the survey?
       That’s not the name of my HMO. Did you change my HMO?


PRACTICAL POINTS OF SURVEY PROTOCOL

In surveying the Medicare population on their HMO experiences, we were also reminded
of some practical considerations for communicating with our respondents.

F      Don’t assume that beneficiaries know what an HMO is or that they are enrolled.

�	     Don’t assume that beneficiaries know the HMO by the Medicare product name;
       mention other names of the HMO.


                                             5

F	     State clearly in several places that the survey was@    sent by the HMO or a
       representative of an HMO physician.

b	     Be sure to arrange for an “800” telephone contact or other method so that
       beneficiaries can ask questions about the survey to a “real person”.

�	     Whoever takes calls from the beneficiaries should bepatient and prepared with
       answers for the most commonly asked questions.

F	     Let beneficiaries know that answering the survey a little late is better than not
       answering at all.

�	     Be relentless in eliminating Medicare jargon, acronyms and complex wording from
       the survey document.

�	     If the study team intends to do any follow-up with the respcmding beneficiaries, be
       sure to request their telephone numbers on the survey form.


DATA ANALYSIS: Understanding What The Numbers Say

After analyzing the survey data in a number of different ways, we presented the results in
four different reports keyed to our study focus, issues and analysis plan.

b Beneficiary Perspectives: To provide a summary of beneficiary perspectives, we
completed separate frequency distributions and cross-tabulations for weighted enrollee and
disenrollee data’ and compared their answers per question. We also analyzed sub-
populations of enrollees and disenrollees in the same way. Generally, beneficiary
responses indicated Medicare risk HMOS provide adequate service access for most
beneficiaries who have joined. In some instances, however, enrollees and disenrollees
differed markedly in reporting their HMO experiences with disenrollees citing some
problems more frequently.

 � Issues Across HMOS: To provides insights into how beneficiaries’ responses may

have varied across our sampled 45 HMOS, we aggregated the unweighed enrollee and
disenrollee data to the HMOS in our sample to identify distribution and intensity of access
problems among HMOS. We explored HMO structural characteristics, such as model
type, as well. We concluded that using beneficiary-level data linked back to the HMO
provides additional insights into the issues of HMO enrollment procedures and service
access. This type of information may prove especially useful in focusing monitoring
efforts.

�  Individual HMO Projiles: Each of the 45 sampled HMOS was proffled for 18 key
survey questions grouped under 5 categories -- health screening, understanding of HMOS,
appointments, services and personal treatment. For each key question, we compared the
mean response for all sampled HMOS to the mean response for each sampled HMO. A


                                              6
positive or negative difference between the means of at least one standard deviation was
designated respectively as above or below average. The profiles differentiate the many
aspects of enrollment procedures and service access within any HMO. The profde data
means also suggested two other uses, i.e., the development of tolerance levels for
acceptable HMO performance and as a supplement usefid in the interpretation of other
data sets.

�   Performance Indicafons: To determine if our data could be used to assess HMO
performance, we analyzed both beneficiary-level and HMO-level data to construct
regression models that explain the relationship between beneficiary survey data and future
disenrollment, and spectilcally, how service access relates to disenrollment status. We
also calculated more recent disenrollment rates for our sampled HMOS.

We found the questions most predictive of beneficiaries’ l%ture disenrollment included:

�      Were complaints taken seriously by their HMO doctors?

�	     Did their primary HMO doctors provide Medicare services, admit them to the
       hospital, or refer them to a specialist when needed?

�	     Did they perceive their HMOS as giving too high a priority to holding down the
       cost of medical care compared to giving the best medical care?

�	     Did they perceive their health got worse as a result of the medical care they
       received in their HMO?

�	     Did they experience long waits (1 hour or more) in their primary HMO doctors’
       offices?




                                             7

                              CONCLUSIONS

We believe our beneficiary survey and resulting reports have implications for the
Medicare risk HMO program.

�       Program Irzformah”on: Our findings are another indicator or an update of progmm
weaknesses that have previously been suggested by others. In addition, our data have
highlighted some areas as problematic that earlier were viewed as functioning sufficiently
well. Beneficiaries’ awareness of their appeal rights is an example. The beneficiary data
also show that, while disenrollees may be more intense in their criticism of HMOS,
enrollees are also encountering some of the same difficulties in accessing HMO medical
services.

b       Program Management: Our experience with this survey has convinced us that
Medicare beneficiaries, both enrollees and disenrollees, are an excellent source of detailed
information about program operations. More than satisfaction ratings, we were able to
gather data on the process and experience of HMO membership. We acknowledge that
the survey data, not validated by review of medical fdes or HMO records, have
limitations. Nevertheless, they still represent reality for beneficiaries who are free to act
on their perceptions of their HMO experiences.

�       Ongoing Evalu@”on: For both purposes of current program information and
management, we urge HCFA to systematically and repeatedly collect data from both
enrollees and disenrollees, with linkage to their speeitlc HMOS. Such an approach, in
combination with data from other sources, is a powerful management tool that allows the
development of performance standards and trends over time, and the ability to judge if
problems are pervasive or confiied to specfIc HMOS.




                                              8

                               ENDNOTES


1.	   We selected a stratifkd random sample from HCFA’S Group Health Plan (GHP)
      data base. First, we sampled 45 HMOS from the 87 HMOS under a risk contract
      with HCFA as of February 1993. Beginning with the GHP data, we counted the
      number of enrollments occurring within calendar years 1991 and 1992. For this
      cohort, we then calculated the proportion of disenrolhnents within the following 12
      months. Based on this disenrollment rate, we divided the 87 risk HMOS into three
      strata of 29 HMOS each. Within each strata, we selected 15 HMOS by simple
      random sampling. Second, from each sampled HMO, we randomly selected 50
      Medicare beneficiaries who were enrolled as of February 28, 1993 and 50 who had
      disenrolled between November 1992 and February 1993 inclusive. When the total
      number per HMO for either group was less than 50, we selected them all. Using
      HCFA’S Enrollment Data Base, we excluded, from the sampling universe,
      beneficiaries who had died or who appeared as current enrollees, but had actually
      disenrolled since the last update to the GHP ffle. This process resulted in 2,217
      enrollees and 1,915 disenrollees for a total of 4,132 beneficiaries.

2.	   We setup a case log in DBase to track each beneficiary’s survey form from the
      time we mailed the survey until the time we entered the responses on a usable
      survey into our database.

3.	   Penchansky, Roy, DBA, and J. William Thomas, PhD, “The Concept of Access:
      Deftition and Relationship to Consumer Satisfaction, ” Medical Care, February
      1981, 12:2:127-140.

      Thomas, J. William, PhD, and Roy Penchans@, DBA, “Relating Satisfaction With
      Access to Utilization of Services, ” Medical Care, June 1984, 22:6:553-568.

4.    The Penchans& and Thomas five dimensions of access to services are:

      a.     AvaiZubi2ity - the relationship of the volume and type of existing services
             (and resources) to the client’s volume and types of need. It refers to the
             adequacy of supply of medical providers, facilities and specialized programs
             and services, such as mental health and emergency care.
      b.     Accessibility - the relationship between the location of supply and the
             location of clients, taking account of client transportation resources and
             travel time, distance and cost,
      c.     Accommodation - the relationship between the manner in which the supply
             resources are organized to accept clients (including appointment systems,
             hours of operation, walk-in facilities, telephone services) and the client’s
             ability to accommodate to these factors and the client’s perception of their
             appropriateness.
      d.     A&ordability - The relationship of prices of services and the providers’
             insurance (or deposit requirements) to client’s income, ability to pay and


                                           9
             existing health insurance. Client perception of worth relative to total cost is
             a concern, as is client knowledge of prices, total cost and possible credit
             arrangements.
      e.	    Acceptability - the relationship of clients’ attitudes about personal and
             practice characteristics of providers to the actual characteristics of existing
             providers, as well as to provider attitudes about acceptable personal
             characteristics of clients. In turn, providers have attitudes about the
             preferred attributes of clients or their financing mechanisms. Providers
             may be unwilling to serve certain types of clients or, through
             accommodation, make themselves more or less available.

5.	   A study funded by AARP, “Public Benefit Application Forms: How They Impede
      the Application Process, ” #9105, Public Policy Institute, December 1991 notes
      II. . .when writing documents for the elderly, it is essential to heed such factors as
      print size, typeface, graphics and layout, any of which could significantly interfere
      with reading comprehension. ”

6.	   Based on their average age, many would have been of high-school age during the
      Depression which would have limited their access to higher education for financial
      reasons.

      AARP, 1991, op. cit., “,. the majority of the [forms and material assessed] is
      written at the high school to college level. Yet... many older adults lack the
      education needed to read and understand the forms. ”

7.	   We weighted data to reflect the enrollment size of their Medicare risk HMOS, their
      enrollment status when sampled, and our decision not to assume knowledge about
      non-respondents.




                                             10
                               APPENDIX                  A
                          SUMMARY       OF REPORT      FINDINGS



Below, for each of the four reports, is a summary of findings. Throughout the reports,
several recurrent themes are discernible. Overall, responses from Medicare beneficiaries
in risk HMOS indicated adequate access to medical services. However, disenrollees more
oilen reported problems than enrollees, as did ESRD/disabled beneficiaries compared to
aged beneficiaries. Predictably, some HMOS performed better than others. When
problems were reported, they were, despite the analysis method used, consistently in the
areas of health screening at application, lack of awareness of appeal rights, difficulty with
appointments and access to some services, and perceptions of declining health due to
HMO care. The failure of physicians to take beneficiaries’ health complaints seriously,
and HMOS emphasizing cost control over providing the best care were two other problems
beneficiaries perceived.


“Beneficiary Perspectives of Medicare Risk HMOS,” 0EI-06-91-O0730

Generally, beneficiary responses indicated Medicare risk HMOS provide adequate service
access for most beneficiaries who have joined. The majority of enrollees and disenrollees
reported medical care that maintained or improved their health, timely appointments for
primary and specialty care, good access to Medicare covered services and to hospital,
specialty and emergency care, and sympathetic personal treatment by their HMOS and
HMO doctors. In some instances, however, enrollees and disenrollees differed markedly
in reporting their HMO experiences with disenrollees citing some problems more
frequently.

Our survey results also indicated some serious problems with enrollment procedures and
service access that, we believed, required HCFA’s attention. Three items need immediate
exploration: 1) better informing of beneficiaries about their appeal rights as required by
Federal standards; 2) carefully examining service access problems reported by
disabled/ESRD beneficiaries, an especially vulnerable group; and 3) monitoring HIvlOs for
inappropriate screening of beneficiaries’ health status at application. Other service access
issues meriting examination by HCFA in the near future concerned beneficiaries’
perceptions of problems with making routine appointments, declining health caused by
HMO care, and HMOS’ refusal to provide certain services.


“Medicare Risk HMOS: Beneficiary Enrollment and Service Access problems,” OEI-
06-91-00731

Most enrollment and service access problems reported by beneficiaries are widespread
among Medicare risk HMOS, but at varying degrees of htensity. Disenrollees generally


                                             A -1

experienced problems at a higher degree of intensity than enrollees. Spectilc problems
that were fairly or very wide-spread and intensive were: HMOS’ asking beneficiaries about
their health problems at application, beneficiaries’ lack of awareness of appeal rights,
disenrollees’ perception of problems with access to medical services, and beneficiaries’
perceptions that primary HMO doctors failed to take their health complaints seriously and
that holding down the cost of medical care was more important to HMOS and HMO
doctors than giving the best medical care possible. Beneficiaries in group or staff models
and in non-profit HMOS were more likely to report enrollment and service access
problems.

We concluded that using beneficiary-level data linked back to the HMO provides
additional insights into the issues of HMO enrollment procedures and services access.
This type of information may prove especially useful in focusing monitoring efforts. For
example, it could answer questions such as, “Are problems widely distributed among
HMOS or isolated incidents?” or “If the problem is wide-spread among HMOS, does it
involve a substantial percentage of beneficiaries?” We also suggest that HCFA establish
acceptable tolerance levels for monitoring, since a problem may be pervasive, but not
necessarily critical.


“Individual Profiies of Medkxwe Risk HMOS,” 0EI-06-91-O0733

The proffles differentiate the many aspects of enrollment procedures and service access
within any HMO. This level of data could be used to pinpoint specific problematic
HMOS and to indicate when corrective actions are needed. The profde data means also
suggested two other uses, i.e., the development of tolerance levels for acceptable HMO
performance and as a supplement useful in the interpretation of other data sets.


“Medicare Risk HMO Performance Indicators,” OEI-06-91-00734

Overall, we found that adjusted disenrollment rates may provide an early alert of possible
problems among Medicare risk HMOS. Adjustments include 1) annualizing rates among
newer HMO risk contracts, and 2) accounting for administrative disenrollrnents, e. g.,
beneficiaries moving from service area, which tend to inflate disenrollment rates. After
adjustments, HMOS with higher disenrollment rates had more enrollees who reported
service access problems. Beneficiaries more likely to disenroll tended to report declining
health due to their HMO care, being disabled/13SRD, an HMO emphasis of holding down
the cost of care over giving the best medical care possible, and experiencing long waits in
primary HMO doctors’ offices.




                                            A -2

The questions we found most predictive of beneficiaries’ fimre disenrollment included:

�      Were complaints taken seriously by their HMO doctors?

*	     Did their primary HMO doctors provide Medicare services, admit them to the
       hospital, or refer them to a specialist when needed?

�	     Did they perceive their HMOS as giving too high a priority to holding down the
       cost of medical care compared to giving the best medical care?

�	     Did they perceive their health got worse as a result of the medical care they
       received in their HMO?

�	     Did they experience long waits (1 hour or more) in their primary HMO doctors’
       offices?

We recommended that HCFA: 1) use adjusted disenrollment rates along with other
available HMO information to target reviews of HMOS; 2) track disenrollment rates over
time to detect potential problems among HMOS; 3) conduct disenrollment surveys that
fully capture all the beneficiary’s reasons for leaving the Medicare risk HMO; 4) monitor
Medicare risk HMOS with high disenrollment rates and reported service access problems
and work with HMOS to respond to the needs of beneficiaries at risk of disenrolling; 5)
systematically and routinely survey enrollees on key indicators of service access to
complement disenrollment data.




                                           A -3

                                     APPENDIX                       B
                       DEMOGRAPHIC              PROFILE      OF RESPONDENTS
                                               (Weighted Data)


                            TOTALPOPULATION                 DISENROLLEES                   ENROLLEES
GENDER
  Female                         60%(666,049)                 53% (15,065)                60% (650,984)
   Male                          40% (446,205)                47% (13,139)                40% (433,067)

RACE/ETHNICITY
  White                          90% (991 ,084)               88% (24,872)                90% (966,213)
  Non-White                       7% (83,684)                 12% (3,332)                  7% (80,352)
  Unknown                         3% (37,486)                      o                       3% (37,486)

AVERAGE AGE                         74 Years                     73 Years                    74 Years

EDUCATION
 < Than High School              24%    (274, 156)            20%    (5,683)              25%   (268,473)
 High School Diploma             29%    (318,440)             22%    (6,238)              29%   (312,201)
 > Than High School              43%    (474,317)             49%   (13,778)              42%   (460,539)
 No Response                      4%     (45,342)              9%    (2,504)               4%    (42,838)

MEDICARE
CATEGORY
  Aged                          97% (1 ,078,445)              92% (25,907)               97% (1,052,538)
  Disabled/ESRD                   3% (33,809)                  8% (2,296)                  3% (31,513)

COMPETITIVE AREA
  Competitive’                   63% (700,103)                53% (14,878)                63% (685,225)
  Noncompetitive                 37% (412,152)                47% (13,325)                37% (398,826)

HMO EXPERIENCE
  Prior Experience               14% (154,069)                21% (5,997)                 14% (148,072)
  No Experience                  82% (906,961)                71% (19,905)                82% (887,056)
  No Response                     4% (51,226)                  8% (2,302)                  4% (48,923)

AVERAGE LENGTH

OF TIME IN HMO                     36 Months
                   29 Months                   36 Months

SERIOUS HEALTH

CONDITIONS
  2+ conditions                    6%    (61,003)              5%    (1,254)               6%    (59,749)
  1 condition                    24%    (265,866)             22%    (6,153)              24%   (259,713)
  None                           60%    (669,619)             58%   (16,440)              60%   (653,180)
  No Response                    10%    (115,767)             15%    (4,357)              10%   (111,410)



 1 A competitive area is a county in which 2 or more of —
                                                        all Medicare risk HMOS, not just sampled HMOS,
   provide services. Beneficiaries were then matched to counties by zip codes of their mailing address.

 2	 Health conditions are self-reported, and me for example, broken bones, cancer, heart attack, pneumonia or
    stroke.



                                                     B-1

            APPENDIX              C




SAMPLES   OF COVER   LETTERS   TO BENEFICIARIES




                       c-1
     ,   .,
          A-.




                                           April 14, 1993




Dear Medicare Member:

Please help us make the Medicare program better. All you need to do is complete the enclosed
survey and return it by April 23, 1993. No pos~ge is reamed for the return envelope.

We want to improve health care senices provided to Medicine beneficiaries by health
maintenance organizations -- HMOS. Since you have been an HMO member, your valuable
experience will help us identi~ areas that need improvement.

Please take the time to complete the survey. It may seem long, but the questions are short, and
you won’t have to answer every one. Also, it is okay if someone helps you.

Anything you say will be strictly con.fidentid. NO one, including your HMO, will know your
answers. To assure this, please do not write your name on the survey.

If you have any questions, call us toll free at l-S()()-84&fJ9@.   Thank you very much for your
help.



                                           Sincerely,          ,
                                         q&/’7-@_
                                           Judith V. Tyler
                                           Survey Project Leader
         /-%



           4
         ($<
          \.
                            DEPARTMENT          OF HEALTH          AND   HUMAN    SERVICES



                                                      May 5, 1993


    Dear Medicare Member:

    Several weeks ago, we sent you a survey asking about your experiences as a member of a
    health maintenance organization (HMO). We are concerned because we haven’t received
    your completed survey yet.

    Maybe you thought the survey didn’t apply to you for the following reasons.    If so, please
    consider our explanations.

    10         We had the wrong name for your HMO on the survey.

               Answer:	     HMOS often have several names. Check your HMO card or call us for
                            other names your HMO uses.

    2.	        You belong to a health plan, NOT an HMO.

               Answer:      A health plan is another name for an HMO.

    3.         You don’t belong to the HMO anymore.
.
               Answer:      We know some Medicare members have lefi their HMOS. Information
                            on WHY you left is very usefil to us.

    4.         You couldn’t complete the survey by the date we requested.

               Answer:	     Don’t worry about the return date. What you have to say about your
                            HMO is the most important thing.

    Please take the time to complete the survey if you still have it. Anything you say will be
    strictly confidential.

    Please call us toll-ffee at 1—8W8484 960 if you need another survey, if you would like
    the survey written in Spanish, or if you have any questions.


                                                      Sincerely,


                                                   %-5+
                                                      Survey Project Leader
                                                   May 19, 1993



Dear Medicare Member:


Several weeks ago, we wrote to you of our concern that we hadn’t received your completed survey
about your health maintenance organization (HMO). Our thanks to the many of you who called us.
If you said you needed another survey, here it is. If you have already returned the survey, thank you.


If you didn’t call us, you may think the survey doesn’t apply to you. You may be wrong. Please call
us at l-80&848-8%0       so we can be sure.


Finally, some of you simply may not wish to complete the survey. But, before you throw it away,
please consider that we need information from you about the Medicare HMO program. We are sincere
about wanting to improve Medicare.      You can help us.


All you need to do is:


1.	    Return the completed sumey to us by June 2. If you need a few extm days, that’s okay. What
       you have to say about your HMO is the most important thing.


2.     Use   the enclosed envelope. No postage is required.


3.	    Remember anythingyou say will be strictly confidential. No one, including your HMO, will
       know your answers.


Phase call us toll-free at 1-800-848-8%0      if   you would like the survey written in Spanish, or if you
have any questions.


                                                   sincerely,



                                                   Judith V. Tyler
                                                   Survey project Leader
                             APPENDIX                  D





               ENROLLEE      AND DISENROLLEE          SURVEY    FORMS3




3	 The enrollee and disenrollee forms are nearly identical, except for changes in verb
   tense, for the frost 55 questions. Therefore, we have included a complete enrollee
   survey form, but just questions 56 through 64 for the disenrollee survey form.


                                          D-1
           mmc**
     ,#            %




     [(c
     %+   4
          4vam
                            DEPARTMENT               OF HEALTH        AND   HUMAN        SERVICES




                          HEALTH    MAINTENANCE   ORGANIZATIONS              (HMOS)
                                    A Survey of Medicare Members




                                                      Form E




/	           Is w       HMO’s   name printed in the box above?         Sometimes     an HMO will
             have several names. If you are not surer call the HMO.               If you are sure this
             is ~  your HMO, answer question 1 only.



/	           Anything     you say will be strictly    confidential.   To assure this, please do not
             write your name on the survey.



#            Please read the directions     on the next page.



/            Callus    toll free at 1-800-848-8960       if you have questions.
~	     When the question       says “HMO,”        we mean the HMO you belong to now.         Your

       HMO’s      name is in the box on the front cover.




/	     YOU will NOT answer       every question.      skip a question    when we say -- (Go to

       question    _    ).




/	     For most questions,      you Should choose      just ONIS answer.    We will tell you when

       you should do something       different.




/	     You may change        your answer.    Mark out the answer        you DON’T   want.   Make sure

       we know which answer         you ~     want.




/      You may add comments.          Write them by the questions.




Directions                                                                  HMO Survey (Form E) - Page i
                                    Section      1:    Tell Us About        You

                 These questions          ask for some basic information           about you.





/         May we call you if we have further               questions    about your HMO?


          yes (area code: _)(telephone                 number:                           )
          no


    1.�   Are you currently         a member        of the HMO    named on the front cover?
          (Remember,       you may know the HMO by another                  name.)


          A)   yes

          B)   no, I left the HMO         (Stop.      Return the survey to us.)

          C)	 I have never been a member               of that HMO.
               (Stop.     Return the survey to us.)


    2.    What   is the highest        level of education     you completed?


          A)   less than high school
          B)   high school diploma
          C)	 vocational/technical         training

          D)   some college,        no degree

          E)   college    degree

          F)   postgraduate         or professional     degree



    3.	   Immediately      before ioininq the HMO,           where     did you usually       receive   your
          health care?


          A)   another    HMO
          B)   doctor’s    office
          C)   community      clinic or health center

          D)   hospital   outpatient      clinic

          E)   hospital   emergency        room

          F)   no regular place



Section 1: Tell Us About You                                                   HMO Survey (Form E) - Page 1
    4.   I worry about my health &             than other people my age.


         A)   true
         B)   false
         C)   I don’t know


5.       I usually go to the doctor as soon as I start to feel bad.


_        A)   true
         B)   false
_        C)   I don’t know




                        Section      2:   When      You Joined      The HMO

         These questions         ask about what     happened   when you joined the HMO.





6.       How did you apply for membership             in the HMO?      Did you:


         A)   tell an HMO    representative,      who contacted     you, that you wanted     to
              apply?
         B)   contact   the HMO      on your own to apply?
         C)	 sign up for membership        at work?     (Go to question       10)
         D)   I didn’t apply for membership.         (Go to question    10)


7.	      When      you applied for HMO     membership,      were you asked about your health
         problems?      (Don’t    count questions    about kidney failure or Medicare      hospice
         coverage. )


         A)   yes
         B)   no
_        C)   I don’t   remember




Section 2: When You Joined The HMO                                      HMO Survey (Form E) - Page 2
8.     Were you required to have a physical             exam before you could join the HMO?


       A)   yes
       B)   no
       C)   I don’t remember


9.	    When      you applied for HMO       membership,     did you know you could change
       your mind and back out before the HMO               membership     took effect?


       A)   yes
       B)   no
_      C)   I don’t remember


10.	   Did you know,        from the beginning,      that an HMO      member   must be referred   to
       a specialist   by a primary    HMO     doctor?


       A)   yes
_      B)   no
_      C)   1 don’t remember


11.	   Did you know,        from the beginning,      that an HMO      member   could only use
       HMO doctors         and hospitals   (except   in emergencies     outside the HMO’s
       service    area)?


       A)   yes
       B)   no
_      C)   I don’t remember




Section 2: When You Joined The HMO                                      HMO Survey (Form E) - Page 3
                               Section     3:   How   Is Your Health?

   These questions       ask about your health while you have          been an HMO member.





12.    When     you first joined the HMO,        how would you rate your health overall?


       A)   excellent
       B)   good
       C)   fair

       D)   poor

       E)   very poor



13.	   Have you seen an HMO doctor or received                 any health care services   through
       the HMO while you have been a member?


       A)   yes
       B)   no (Go to question       55)
       C)   I don’t remember        (Go to question      55)


14.	   While you have been in the HMO,             have you ever had serious health
       problems,    such as: (Mark         each answer    “yes” or “no”.)


yes    no
               A)   a heart attack
               B)   cancer
               C)   kidney failure
               D)   a stroke
       _       E)   broken bones
               F)   internal    bleeding
               G)   pneumonia




Section 3: How Is Your Health?                                         HMO Survey (Form E) - Page 4
 15.	   While you have been a member                     of the HMO,      have you ever had any of the
        following     health problems?              (Mark    each answer     “yes” or “no”.)


yes      no
                A)    high blood pressure
                 B)   a heart condition
                 c)   diabetes

                 D)   difficulty     breathing

                E)    joint pain or swelling

                F)    poor blood circulation

                G)    problems       with urinating

                H)    poor digestion

                1)    women’s        problems

                J)    eye problems,          other than needing         glasses

                K)    ear, nose or throat            problems

                L)    skin problems

                M)    memory        loss

                N)    difficulty     swallowing

                o)    dizziness      or loss of balance

                P)    mental       health problems          including   depression

                Q)    weight       too high or too low



                R)	 a health problem               not listed here or in question       14. (Please explain
                      the health problem             briefly. )




16.	    While you have been in the HMO,                     have you ever been admitted          to the
        hospital?


        A)    yes

        B)    no (Go to question            18)

        C)    I don’t remember         (Go to question            18)




Section 3: How Is Your Health?                                                     HMO Survey (Form E) - Page 5
17.    Did you ever have Surgery                While you Were a patient in the hospital?


       A)   yes
       B)   no
       C)   I don’t remember


18.	   During the last vear,        have you seen your primary         HMO doctor or
       specialist(s),     by referral,    to check your health?


       A)   yes

       B)   no (Go to question           20)

       C)   I don’t remember        (Go to question        20)


19.	   During the last vear,       about how many total visits have you had with your
       primary     HMO doctor or specialists?


       A)   1 to 3 visits
_      B)   4 to 6 visits
       C)   7 to 9 visits

       D)   10 to 12 visits

       E)   more than 12 visits



20.    During the last vear,       have you ever been a patient         in a nursing home?


       A)   yes
       B)   no
_      C)   I don’t     remember




Section 3: How Is Your Health?                                           HMO Survey (Form E) - Page 6
                   Section     4:    How      Has The HMO       Treated     You?

       These questions       ask what       it has been like to be a member   of the HMO.





21,	   Has your primary        HMO doctor ever       failed to take your complaints     about your
       health seriously?


       A)   yes

       B)   no (Go to question       23)

       C)   I don’t remember        (Go to question    23)


22.	   How often has your primary            HMO   doctor failed to take your complaints
       about your health seriously?


_      A)   all the time
_      B)   most of the time
_      C) about half the time
_      D)   a few times
       E)   I don’t remember


23.	   HOW long do you usually have to wait for a scheduled               appointment    with your
       primary     HMO doctor?


       A)   1 to 4 days
       B)   5 to 8 days
       C)   9 to 12 days

       D)   13t016     days

       E)   17 to 20 days

       F)   longer than 20 days





Section 4: How Has The HMO Treated You?                              HMO Survey (Form E) -   Page 7
24.	   When       you go to the appointment,      how long do you usually have to wait m
       the office       before you see your primary    HMO doctor?


       A)    less than a % hour
       B)     1A hour to 1 hour
       C)	 1 hour to 1 % hours
       D)     1 % hours to 2 hours
       E)    longer than 2 hours


25.	   When       you have been verv sick, has your primary      HMO doctor,     his staff or
       HMO      office staff   made sure you had an appointment       within   a day or two?


       A)    yes
_      B)    no
       C)    I haven’t    been very sick
       D)    I don’t remember


26.	   How long do you usually have to wait for a scheduled             appointment   with a
       specialist?


       A)     1 to 4 days
       B)    5 to 8 days
       C)	 9 to 12 days

       D)     13t016       days

       E)     17 to 20 days

       F)    longer than 20 days



27.	   When       you have telephoned       to make an appointment    with your primary   HMO
       doctor,      has the line ever been busy?


       A)    yes

       B)     no (Go to question     30)

       C)     I don’t    remember   (Go to question   30)




Section 4:   How Has The HMO Treated You?                            HMO Survey (Form E) - Page 8
28.    How often       has the line been busy?


       A)   all the time

       B)   most of the time

       C)   about     half the time

       D)   a few times

       E)   I don’t remember



29.	   Have you ever given up on making                appointments     because   of the busy
       telephone      line?


       A)   yes
_      B)   no
       C)   I don’t   remember


30.	   Has your primary       HMO      doctor,     his staff or the HMO office staff ever lost or
       misplaced      your medical      records,    including   test results?


       A)   yes

       B)   no (Go to question         33)

       C)   I don’t remember      (Go to question        33)


31.    How often      have your medical          records been lost or misplaced?


_      A)   all the time
       B)   most of the time
       C)   about half the time
       D)   a few times
_      E)   I don’t   remember


32.	   Have lost or misplaced          medical     records ever kept you from using HMO
       services?


       A)   yes
       B)   no
       C)   I don’t   remember



Section 4: How Has The HMO Treated You?                                   HMO Survey (Form E) - Page 9
33.      Has your primary        HMO doctor,       his staff or HMO office staff ever told you:
         (Mark     each answer     “yes” or “no”.)


yes       no
——               A)       you are too sick to be in the HMO?
—.               B)       the HMO can’t afford to provide the medical             care you need?
—_               c)       you would     probably    receive   better   care if you left the HMO?
——               D)       you ask for too many appointments             or services?
—_               E)      you must leave the HMO             if you need nursing home care?




                              Section    5:     Available     HMO      Services
      These questions       ask about services       that the HMO has made available         to you.




34.	     Has your primary        HMO    doctor ever failed to provide        Medicare   covered
         services     that you believed        you needed?


         A)    yes

         B)    no (Go to question       36)

         C)    I don’t remember       (Go to question       36)


35.	     How often has your primary              HMO doctor failed to provide these       Medicare
         covered      services   that you believed     you needed?


_        A)    all the time
_        B)    most of the time
_        C)    about half the time
_        D)    a few times
_        E)    I don’t remember




Section 5: Available HMO Services                                          HMO Survey (Form E) - Page 10
36.	   Has your primary        HMO doctor ever failed to admit you to the hospital when
       you believed       you needed to be admitted?


       A)   yes

       B)   no (Go to question       38)

       C)   I don’t remember        (Go to question   38)


37.	   How many times has your primary            HMO doctor failed to admit you to the
       hospital?


       A)   1 time
       B)   2 times
_      C)   3 times
_      D)   4 times
_      E)   more than 4 times
_      F)   I don’t remember


38.	   Has your primary       HMO doctor ever failed to refer you to a specialist       when
       YOU thought        you needed to see one?


       A)   yes

       B)   no (Go to question       40)

       C)   I don’t remember        (Go to question   40)


39.    How often has your primary           HMO doctor failed to refer you to a specialist?


_      A)   all the time
_      B)   most of the time
_      C)   about half the time
_      D)   a few times
_      E)   I don’t   remember


40.    Overall,    what    do you think is most important      to your primary   HMO doctor?


       A)   holding down the cost of your medical           care
       B)   giving you the best medical        care possible
_      C)   I don’t know

Section 5: Available HMO Services                                   HMO Survey (Form E) - Page 11
41.	   Has your primary           HMO doctor,      his staff or HMO     office staff ever told you a
       medical      specialist    that you need is not covered         by your HMO?


       A)   yes

       B)   no (Go to question          43)

       C)   I don’t remember           (Go to question    43)


42.    What    medical      specialist(s)      have they mentioned?      (Mark   each specialist   they
       mentioned.       ) Doctors      that specialize   in:


       A)   the heart
       B)   feet
       C)   urinary system         including    kidneys
 and bladder
       D)   skin

       E)   digestion      including    stomach     and
 intestines
       F)   women’s        problems

       G)   ears and hearing only

       H)   ears, nose and throat

       1)   eyes,     other than glasses

       J)   bones, joints and muscles

       K)   arthritis    and joints

       L)   lungs

       M)   nervous      system,    including the brain

       N)   mental      health

       O)   surgery

       P)   cancer

       Q)   diabetes



       R)   other (explain)





Section 5: Available HMO Servic~                                         HMO Survey (Form E) - Page 12
43.	   Has your primary           HMO doctor,         his staff or HMO office staff ever told you a
       medical       service    that you need is not covered            by your HMO?


       A)    yes

       B)    no (Go to question         45)

       C)    I don’t remember          (Go to question       45)


44.	   Are the following          medical      services   the ones they said the HMO does not
       cover?        (Mark each answer            “yes” or “no”.)


yes     no
       —        A)       care in a skilled nursing home

       —        B)      second       opinion by another       HMO doctor      before surgery

                c)      drugs you cannot            give to yourself,    such as medicine       given in a

                        shot

       —        D)      laboratory     tests and X-rays        that help your doctor decide what           is

                        wrong

       —        E)      chiropractors

       —	       H       artificial   legs, arms or breast forms after surgery

                G)      kidney dialysis -- a way to clean your blood when your kidneys

                        don’t work anymore

                H)      medical      equipment       for home use, such as oxygen        equipment       or a

                        wheelchair



45.	   Has the HMO ever refused to approve                    a Medicare    covered   service    that your
       primary       HMO doctor wanted             you to have?


       A)      yes
—      B)       no (Go to question          47)
—      c)       I don’t remember         (Go to question       47)




Section 5: Available HMO Services                                           HMO Survey (Form      E) - Page 13
46.	   HOW often has the HMO          refused to approve           a Medicare    covered   service that
       your primary      HMO   doctor wanted      you to have?


       A)     all the time
—      B)     most of the time
       c)	    about half the time

       D)     a few times

       E)     I don’t    remember



47.	   Has the HMO ever refused to pay a doctor or hospital for your emergency
       care that you were      billed for?


       A)     yes
_      B)     no
—      c)     I don’t    remember


48.	   Have you ever,      on vour own,      gotten     Medicare     covered    services   that your
       primary     HMO   doctor or the HMO did not first approve?               (Do not include
       dentists,    glasses or emergency      care. )


       A)     yes
—      B)     no (Go to question      51)
—      c)     I don’t remember       (Go to question       51)




Section 5: Available HMO Services                                        HMO Survey (Form E) - Page 14
49.	      Do the following          statements    explain   why you got Medicare         covered    services
          on vour own that your primary               HMO doctor or the HMO did not first
          approve?        (Mark     each answer    “yes” or “no”.)


yes        no
          —       A)     I needed the care, even if they would            not approve    it.

          —       B)     I couldn’t    get services    quickly enough through      the HMO.
                  c)	    My primary      HMO doctor wasn’t        helping me.
                  D)     My primary      HMO doctor failed to refer me to a specialist.
          —       E)     The HMO staff didn’t care about me.
          —       F)     My HMO was wrong             when they said the service        wasn’t    covered
                         by Medicare.
          —       G)     I didn’t want to go through         my primary    HMO doctor to see a
                         specialist.
          —       H)     1 didn’t   know that I would       have to pay for it.


50.	      During the last vear,         how many times have you gotten            Medicare       covered
          services     on vour own that your primary            HMO doctor or the HMO            did not first
          approve?       (Your best estimate       is fine. )


_         A)    1 to 3 times
          B)    4 to 6 times
_         C)    7 to 9 times
_         D)    10t012        times
_         E)    more than      12 times


51.       Overall,     what   do you think is most important          to your HMO?


          A)    holding down the cost of your medical              care
          B)    giving you the best medical           care possible
_         C)    1 don’t know




Section   5: Available HMO Services                                         HMO Survey     (Form E) - Page 15
52.     Do you know that you have the right to appeal your HMO’s                   refusal to
        provide       or pay for services?


        A)    yes (Go to question         54)
_       B)    no
_       C)    I don’t remember


53.	    [f you had known             about your rights, would you have appealed        any of your
        HMO’s       refusals to provide or pay for services?


        A)    yes
        B)    no
        C)    My HMO       has not refused       to provide or pay for services.




                           Section        6:    Future   Health   Care Plans
    These questions       ask about your current         health and plans for HMO    membership.




54.	    Has the medical           care that you have received     through   your HMO    caused your
        health to:


        A)    improve     a lot
        B)    improve     a little
        c)	   stay about the same

        D)    get a little worse

        E)    get much worse

        F)    I don’t know



55.     How would you rate your overall health now?


        A)    excellent
        B)    good
        C)	 fair

        D)    poor

        E)    very poor


Section 6: Future Health Care Plans                                    HMO Survey (Form E) - Page 16
    56.    Do you plan to leave the HMO in the near future?


           A)    yes, because        I didn’t agree to join the HMO          in the first place
                 (Stop.     Return the survey to us.)
           B)    yes, because        I am moving         out of the HMO’s    service   area
                 (Go to question        57)
           C)    yes (Go to question           60)
           D)    no (Go to question           58)




    57.	   If you were       not moving,       would you have planned to leave the HMO              in the
           near future      for other reasons?


           A)    yes (Go to question          60)

           B)    no (Stop.        Return the survey to us.)

           C)    I don’t know (Stop.           Return the survey to us.)


    58,    Do you want        to leave the HMO,             but feel that you can’t leave?


           A)    yes

           B)    no (Stop.        Return the survey to US.)



    59.	   Do the following          statements      explain    why you can’t leave the HMO?         (Mark
           each answer        “yes” or “no”.)


    yes     no
                   A)     I can’t   afford    private    health insurance.
                   B)     I can’t afford      non-HMO        doctors.
                   c)	    The HMO       is the only way I can afford         all the medical   care I need.

                   D)     I can’t get Medicaid.

                   E)     There     isn’t another       HMO close-by.

                   F)     It’s too much trouble to find other health care.

                   G)     My family     doesn’t      want    me to leave.

                   H)     Medicine     is too expensive         outside the HMO.





    Section 7: Future Health Care Plans                                        HMO Survey (Form E) - Page 17



.
60,    Do the following         statements    about personal          preferences     explain    why you
       plan to leave (or want to leave) the HMO?                     (Mark each answer          “yes” or
       “no”.)


yes     no
——              A)   I don’t like the choice of primary           HMO doctors.
—.              B)   I can’t see the same primary            HMO doctor every time.
——              c)   I don’t like going through         my primary        HMO doctor to get medical
                     services
       —        D)   My primary      HMO doctor left the HMO.
       —        E)   I want     to use the doctor I had before I joined the HMO.
       —        H    The HMO services        have changed.
                G)   The premium       and/or copayments             are too expensive.
      —         H)   A friend or relative     has encouraged           me to leave.
                1)   I want     to use another     hospital.
                J)   Getting    to the HMO       is too difficult.
      —         K)   I don’t like the HMO        building
      —         L)   I don’t like where      the HMO        is located.




/      (If you marked         ALL answers    “no”, go to question           62.)




Section 7: Future Health Care Plans                                          HMO Survey (Form E) - Page 18
62.	   Do the following      statements     about HMO services        explain     why you plan to
       leave (or want to leave) the HMO?               (Mark each answer       “yes” or “no”.)


yes     no
       —      A)   I can’t see my primary        HMO doctor or specialist          as often as I need.
       —      B)   My primary     HMO      doctor has failed to provide treatments            I need.
       —      c)   I can’t get medical      services    fast enough    when      1 am really sick.
       —	     D)   I am not allowed       to see the specialist(s)     I need.
              E)   I am not allowed       to go to the hospital      when     I need to.
       —      F)   Too many of the medical           services   I need are not covered.
       —	     G)   The HMO won’t          approve    Medicare   covered      services   that my
                   primary   HMO      doctor wants      me to have.
       —	     H)   My primary     HMO      doctor,   his staff or HMO office staff have
                   encouraged     me to leave.
              1)   Making    appointments       by telephone     is too difficult.
       —      J)   I have to wait too long for scheduled           appointments.
       —      W    [ have to wait too long at the office to see the doctor.
       —      U    I am getting    sicker because       of the care I receive     through     the HMO.




/      (If you marked    ALL answers        “no”, go to question      64.)




64.	   Now look back at your answers            for question    61 and question         63.   Circle &
       one answer    that is THE MOST          IMPORTANT        REASON       you plan to leave (or
       want   to leave) the HMO.


/      (Go to question      65 if we have not mentioned          your most important          reason.)



Section 7: Future Health Care Plans                                    HMO Survey (Form E) - Page 19
65.	   Please explain the most imDOrtant              reason you plan to leave (or want to

       leave) the   HMO if we have not mentioned              it.




66.	   (This question    is ONLY for those who plan to leave the HMO. ) After YOU
       leave the HMO,      where      will you usually go to receive     your health care?


—      A)     another    HMO
—      B)    doctor’s    office
       c)     community     clinic or health center
—      D)     hospital   outpatient     clinic
—      E)     hospital emergency         room
—      F)     no regular place




/      Please return your completed              survey to us in the envelope   provided.




Section 7: Future Health Care Plans                                    HMO Survey (Form E) - Page 20
/   Please write here any comments   you have about   the Survey   or your HMO.
Questions 56 through 64 for the disenrollee survey form.




                          D-2
 56.	   Do the following       statements   explain   why you are no longer in the HMO?
        (Mark each answer        “yes” or noll.)


yes      no
—_            A)     I moved    out of the HMO service      area.
—_            B)     The HMO was no longer a part of Medicare.
—_            C)     The company      I worked     for dropped   the HMO.
—_            D)     1 was taken    out of the HMO without          my knowledge.



#       (If you marked    ALL answers       “no”, go to question      58.)




57.     Would you have left the HMO anyway              for other reasons?


        A)    yes

        B)    no (Stop.    Return the survey to us. )

        c)    I don’t know




Section 6: When You Left The HMO                                      HMO Survey (Form D) - Page 17
58.	   Do the following        statements    about personal     Preferences   explain why you left
       (or would   have left) the HMO?         (Mark each answer        “yes” or “no”.)


yes     no
             A)    I didn’t like the choice of primary         HMO doctors.
             B)    I couldn’t    see the same primary         HMO doctor every time.
             c)    I didn’t    like going through   my primary      HMO doctor to get medical
                   services.
             D)    My primary      HMO doctor left the HMO.
             E)    I wanted     to use the doctor      I had before I joined the HMO.
             F)    The HMO services         changed.
             G)    The premium       and/or copayments         were too expensive.
             H)    A friend or relative     encouraged     me to leave.
             1)    I wanted     to use another    hospital.
             J)    Getting     to the HMO was too difficult.
             K)    I didn’t like the HMO      building
             L)    I didn’t    like where   the HMO was located.




#      (If you marked    ALL answers        “no”, go to question     60.)




Section 6: When You Left The HMO                                      HMO Survey (Form D) - Page 18
60.	   Do the following       statements     about HMO services         explain    why you left (or
       would    have left) the HMO?         (Mark    each answer     “yes” or “no”.)


yes     no
—_             A)   I couldn’t    see my primary      care doctor or specialist         as often as 1
                    needed.
—_             B)   My primary      HMO doctor refused to provide treatments                   I needed.
—_             c)   I couldn’t    get services   fast enough     when    I was really sick.
—.             D)   I was not allowed       to see the specialist(s)     I needed.
—_             E)   I was not allowed       to go to the hospital when          I needed to.
—.             F)   Too many of the medical          services   I needed      weren’t    covered.
—.             G)   The HMO wouldn’t         approve    Medicare    covered       services     that my
                    primary      HMO   doctor wanted     me to have.
—_             H)   My primary      HMO doctor,      his staff or HMO office staff encouraged
                    me to leave.
—_             1)   Making    appointments       by telephone    was too difficult.
—_             J)   I had to wait too long for scheduled           appointments.
—.             K)   I had to wait too long at the office to see the doctor.
—_             L)   I was getting      sicker because   of the care I received          through     the
                    HMO.


~      (If you marked      ALL answers      “no”, go to question       62.)




62.	   Now look back at your answers             for question   59 and question          61.    Circle &
       one answer     that was THE MOST             IMPORTANT      REASON         you left (or would
       have left) the HMO.



d      (Go to question       63 if we have not mentioned         your most important            reason. )




Section 6: When You Left The HMO                                        HMO Survey (Form D) - Page 19
    63.	   Please explain the most imDortant            reason you left (or would have left) the
           HMO   if we have not mentioned         it.




64.        After you left the HMO,       where    did you usually receive   your health care?


—          A)    another    HMO
—          B)    doctor’s   office
—          c)    community      clinic or health center
—	         D)    hospital   outpatient   clinic
           E)    hospital   emergency     room
           F)    no regular place




/          Please return your completed       survey to us in the envelope      provided.




Section 6: When You Left The HMO                                       HMO Survey (Form D) - Page 20
/   Please write here any comments   you have about the survey   or your HMO.
